No. 21-A8

In The Supreme Court of the United States
_____________________

PANTELIS CHRYSAFIS, BETTY S. COHEN, BRANDIE LACASSE, MUDAN SHI, FENG ZHOU,
AND RENT STABILIZATION ASSOCIATION OF NYC, INC.,
v.

Applicants,

LAWRENCE K. MARKS, IN HIS OFFICIAL CAPACITY AS CHIEF ADMINISTRATIVE JUDGE OF
THE COURTS OF NEW YORK STATE,
Respondent.

CERTIFICATE OF SERVICE

I, Randy M. Mastro, hereby certify that I am a member of the Supreme Court
Bar, and that I have this 5th day of August 2021, caused a copy of Applicants’ Reply
Brief in Support of Emergency Application for Writ of Injunction to be served via
electronic mail, and via overnight mail to anyone who does not consent to service
via electronic mail, to:
Letitia James
Attorney General of the State of New York
Barbara D. Underwood
Solicitor General of the State of New York
Steven C. Wu
Deputy Solicitor General
Judith N. Vale
Assistant Deputy Solicitor General
Linda Fang
Assistant Solicitor General
New York State Office of the Attorney General
Division of Appeals & Opinions
23rd Floor
28 Liberty Street
New York, NY 10005
Letitia.james@ag.ny.gov
Barbara.underwood@ag.ny.gov
Steven.wu@ag.ny.gov
Judith.vale@ag.ny.gov
Linda.fang@ag.ny.gov
Counsel for Respondent

/s/ Randy M. Mastro
RANDY M. MASTRO
GIBSON, DUNN & CRUTCHER LLP
200 Park Avenue
New York, NY 10166
(212) 351-4000
rmastro@gibsondunn.com
Counsel for Applicants

